PROOF OF SERVICE
I, Michael Leatherwood, do swear or declare that on this date, —i A/u 8
2021, as
required by Supreme Court Rule 29 I have served the enclosed PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above documents in the
prison institutional mail system at Lexington Correctional Center, Lexington, OK, to be delivered to
the United States mail properly addressed to each of them and with first-class postage prepaid.
PAGE LIMITATION
I, Michael Leatherwood, state that the foregoing complies with the page limitations specified in
Supreme Court Rule 33.
The names and addresses of those served are as follows:
Kelley Miller
Oklahoma Attorney General’s Office
313 NE 21st.
Oklahoma City, OK 73105
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

J Asp.

2021.

Respectfully submitted
MICHAEL D. LEATHERWOOD
PRO SE

DOC No. 595058
P.O. Box 260
Lexington, OK 73051

16

